""




            NATIONAL YOUTH DRUG

            EDUCATION PROGRAM





     OFFICE OF INSPECTOR GENERAL
     OFFICE OF ANALYSIS AND INSPECfONS
                                         APRIL 1988
                       ,"                                                   ..",               \'




                       OFFICE OF INSPECTOR GENERAL

                                                                   ote the effciency, effec-
The mission of the Office of Inspector General (OIG) is to pro
                                                        Deparment of Health and
tiveness and integrity of programs in the United States
Human Servces (HHS). It does this by developing methods to detect and prevent fraud,
waste and abuse. Created by statute in 1976, the Inpector General keeps both      the
                                                                              management
Secretary and the Congress fully and currently
                                                 inormed about program or
problems and recommends corrective action. The OIG perform         its mission by conduct­
                                                                200 staff strategically lo­
ing audits, investigations and inspections with approximately 1
cated around the country.


                   OFFICE OF ANAL VSIS AND INSPECTIONS
This report is produced by the Offce of Analysis
                                                 and Inspections (OAl), one of the three
major offices within the OIG. The other two are the Offce of Audit    and the Office of In­
                                                                  term studies designed to
vestigations. OAl conducts inspections which are tyically short-
determine program effectiveness , efficiency and vulnerabilty to fraud and abuse.


                                      THIS REPORT
                                                                  " It was conducted to
 This report is entitled National Yourth Drug Education Programs.
 describe the local level implementation of three national youth drug education programs
 as perceived by program administrators , participating parents and children, and inde­

 pendent professionals.

                                                               , Office of Analysis and In­
 The study was prepared by the Regional Inpector General                 people:
 spections , Region II. Participating in the project were the following


  Region II *                                      Support Regions

  Renee C. Schlesinger(Leadr)                      Barry C. McCy (I)

  Jack Molnar                                      Essie Lewis (III)

  Tracey Kennedy                                   Josiah Townel (IV

                                                   Thomas R. Komaniecki (V)
                                                   Carolyn Neuwirth (V)

  Headquarte       Uaison                          Richard J. Meyer (Vl)

  Suzanne M. Murrin                                Deborah Harvey (IX)

                                                    Stephen A Moses (IX) 



   $ All Region II staff participated in the telephone survey.
             NATIONAL YOUTH. DRUG

             EDUCATION PROGRAMS





                    Richard P. Kusserow
                    INSPECTOR GENERAL




OAI- 02-88- 00080
                                          APRIL 1988
                                              ........... ................. ........
                                                ...........................
                                    ..... ...........................       ...............
                                  .......... ........................... ......... ......




                     TABLE OF CONTENTS





                                                                                              PAGE


 EXECUTIVE SUMMARY


 INTRODUCTION


         Background ......................... 

         Methodology.... .....                                                              ...... 5

 FINDINGS


         Environmental and        Crosscutng Observations ..........                               7

         Boys Clubs of America Observations........................ 12

         Just Say No Observations ...................................

         National Federation of Parents Observations .............

RESPONDENT SUGGESTIONS 


RECOMM ENDA TIONS . 


APP END IX A.................................................................                   24

APPE NDIX B. ....................... ........... .......... .................... 26


APPE ND IX C................................................................. 27


APPENDIX D......... ........... ......... ..................... ............... 28


APPE NDIX E........................ ......... ................... ............. 29

                               EXECUTIVE SUMMARY


PURPOSE

The Administrator of the Alcohol , Mental Health and Drug Abuse Administration re­
quested that the Inspector General of the Department of Health and Human Services
gather information about youth drug education activities. Specifically, this inspection
sought to describe the local level implementation of three national youth drug education
programs as perceived by program administrators , participating parents and children and
independent professionals.

BACKGROUND

The events of the last few years have brought youth drug use to the forefront of the na­
tional consciousness. The media have highlighted the prolieration of drug use among
the nation s youth and the addictions and drug-related deaths of athletes and entertainers.

Congress has ,
             over the last 17 years , proposed several solutions to the drug problem.
Responding to the recent focus on the problems of drug abuse , Congress passed the Anti-
Drug Abuse Act of 1986 which provides $244. 5 millon annually, starting with Fiscal Year
1987 , for drug education and prevention activities at the Departments of Education
(ED), Health and Human Services (HHS) and ACTON. These funds support programs
at the Federal , State and local levels with HHS providing leadership to Federal drug
abuse prevention efforts with an emphasis on programs directed to high-risk youth.

Both President and Mrs. Reagan have addressed the problem of drug abuse. In March
1987 , the President issued Executive Order 12590 creating the Cabinet- level National
Drug Policy Board to coordinate Federal drug enforcement and prevention activities.
Mrs. Reagan has supported community drug programs.

In recent testimony before Congress , the Deputy Administrator of the Alcohol , Drug
Abuse and Mental Health Administration (ADAMHA) stated his concern about the lack
of evaluation of drug education and prevention prograIl funded under the Anti- Drug
Abuse Act of 1986. To obtain more information about drug education activities , the Ad­
ministrator of ADAMH requested that the Inspector General examne drug education
programs based on the perceptions of both participants and independent professionals.
A literature review and intervews with ADAMHA officials and other drug education
professionals identified three prominent national programs.

Boys Clubs of America project Smart Moves has been demonstrated in 10 clubs and is ex­
panding to 200 clubs. Youths participate in an intensive 12-session training program in
basic coping skils designed to help children gain control of their lives and avoid drug use.
Just Say No (JSN), based on a social infuence approach , attempts to make children
aware of social pressures to use drugs, to teach specifc refual skils and to correct false
views of social norms.

The National Federation of Parents (NFP) for Drug Free Youth , started by a group of
parents concerned about the use of drugs and alcohol among their children, advocates
greater parental involvement in determining the values and environment of their
children.

METHODOLOGY

This inspection was conducted in two phases: During PHASE ONE a 10 percent sample
of the combined JSN and NFP membership lists (215 members) were intervewed by
telephone to gather information to project demographics and other statistics. During
PHASE TWO visits were made to 49 local programs where intervews were conducted
with 49 program leaders , 234 youth participants and 126 parents of paricipants in 12
metropolitan areas. Intervews were also held with 43 individuals knowledgeable about
drug education but not directly involved with the program in the study.

OVERALL OBSERVATIONS

                  Gateway drugs " (alcohol , tobacco , marjuana), are the primary concern
                 of respondents with alcohol the greatest concern
                 Respondents agreed that those youth most at risk have low self-esteem
                 drug use in the famly and/or problems at home.

                 Respondents felt that drug education must be comprehensive , include

                 parents and start early.
                 Most respondents support the use of national personalities speakig ou
                 against drug use but only if they are drug- free and not former drg users.
                 Leaders , youth participants and parents were al enthusiastic about their
                 programs.
                 Respondent perceptions did not vary by demographics.
                 Independent professionals and leaders are seeking an assessment of
                 what works.

                 Most of the youth programs are in schools, supported with local funds
                 have a substantial amount of minority participation , but have minimal
                 parental involvement.
SPECIFIC PROGRAM OBSERVATIONS

          Boys Clubs
                  Participation is completely voluntar,   and the youth   demand is high.
                  The curriculum is closely followed.
                  Leaders and parents like the training they receive.

                  The program is liked by all participants , but not well known by

                  independent drug education professionals.


          Just Say No
                  The program is young and appears to be growig.
                   The program is usually ongoing and part of a larger program , generally

                   in schools.

                   The program has a flexible implementation.

                   It is usually viewed positively by everyone , but its limitations are

                   recognized.

          National Federation of Parents for Drug-Free Youth
              . Two- fifths ofthe National Federation of Parents members are no longer
                   active.

                   Two-thirds of the active National Federation of Parents sites run youth

                   programs which are usually Just Say No program.

                   The National Federation of Parents provides local parent groups with
                   tax-exempt status and an information network.
                   Independent professionals not involved are not aware of its activities.

 RESPONDENT SUGGESTIONS FOR ALL PROGRAMS

 Parents believe there is a role for schools , the media and parental involvement in youth
 drug education; they suggest that programs be aied at elementary school children.

 Youtb feel there should be more drug education activities durg and after school and
 want parental involvement.

 Program leaders believe there should be better materials , more resources and a united
 national effort to promote youth drug education programs that start in the elementary
 level.

 Independent professionals want a coordinated community-wide effort which includes an
 ongoing drug education curriculum in the schools. They thin there should be a strong
 parental role and more resources.
RECOMMENDATIONS


           The ADAM and ED should develop an evaluation strategy to
           include long- and short-term evaluations of the implementation and
           effectiveness of youth drug education program.

           The ADAMHA and ED should assure the.effective dissemination of
           available research findings , clearnghouse information and other
           networking activities.

            The ADAMHA and ED should give special consideration to funding
            comprehensive youth drug education program which target children at
            early ages.



            Youth drug education programs should include a parental component to
            keep parents informed regardig what the children are learnig and
            what their own role is in drug prevention.

            The ADAM and ED should review existing leader traing programs
            with a view to identifyng, developing and publiciing a model to be
            made available to States , local communities and program.

    ADAMHA has reviewed these recommendations and concurs with them (see Ap­
    pendix E).
                                     INTRODUCTION


PURPOSE

The Administrator of the Alcohol , Drug Abuse and Mental Health Administration re­
quested that the Inspector General of the Department of Health and Human Servces
gather information about youth drug education activities. Specifcally, this inspection
sought to describe the local- level implementation of three national youth drug education
programs as perceived by program administrators, participating parents and children and
independent professionals.

BACKGROUND

Drug Abuse

The events of the last few years have brought youth drug use to the forefront of the na­
tional consciousness. The media have raised the level of national awareness by
documenting the spread of drug traffic into previously " safe " communities , the prolifera­
tion of drug use among the nation s youth , and tbe advent of " crack " a stronger , less ex­
pensive derivative of cocaine. _ The addictions and drug-related deaths of athletes and
entertainers converted this concern into national action.

On the positive side , there has been some progress in reducing drug use. For example
an annual survey of high school seniors conducted by the University of Michigan s In­
stitute for Social Research (ISR) funded by the National Intitute on Drug Abuse
(NIDA) found a 10 point decline in annual prevalance of marjuana use over the last six
years (from 52 percent in 1981 to 42 percent in 1987). However , the surey found that in
1987 the annual prevalence of cocaie     use among senior high school students dropped
only slightly from its 1985 record high of 13. 1 percent to 10.3 percent.

Legislative History

Congress has , over the last 17 years , proposed several solutions to the drug problem.
December 1970 , it authorized the former Department of Health , Education and Welfare
(HEW) to establish a grant program for developing drug abuse curricula, educational
materials and model programs. In 1972 , the Drug Abuse Offce and Treatment Act ex­
panded and further defined the Federal role in drug abuse prevention. The act created
the National Institute for Drug Abuse (NIA) within HEW and authorized it to make
formula grants to States for treatment and servces as well as special project grants and
contracts for drug abuse treatment and prevention programs. Under the 1972 act , the
Federal Govemment and the States shared fiancial and admistrative responsibilities.

In the Omnibus Budget Reconciliation Act of 1981 , Congress gave the States even
greater responsibility for establishing funding priorities through the introduction of block
                                                                      , "




grants. This act also provided that 20 percent of substance abuse funds should be made
available for drug abuse prevention and early intervention programs and servces. This
plan , which reduced Federal funding, gave the States greater responsibilty for im­
plementing programs. States no longer had to comply with Federal application and
reporting requirements.

Concerned by the limited amount of support and guidance' given drug abuse prevention
and research activities , Congress passed the 1983 Alcohol and Drug Abuse Amendments.
These amendments encouraged NIDA to place a high priority on the identifcation and
funding (through grants and contracts) of effective drug abuse prevention and early inter­
vention projects.

Responding to the recent public focus on the problems of drug abuse , Congress passed
the Anti- Drug Abuse Act of 1986. This act provides $244.5 milion anually, starting
with Fiscal Year 1987 , for drug education and prevention activities at the Deparments of
Education (ED), Health and Human Servces (RRS) and ACTON. These new monies
are being used to fund programs at the Federal , State and local levels.

The greatest share , approximately $200 milion annualy, is admstered by ED , which
previously had a limited role in this area , for Federal support of drug abuse programs in
schools and communities through grants to States and local education agencies. AC­
TION has been given $3 million for Fiscal Year 1987 to initiate private sector efforts to
promote voluntarism in preventing drug abuse. Within HHS , the Offce of Substance
Abuse Prevention (OSAP) has $43 million to provide leadership to Federal drug abuse
prevention efforts with an emphasis on programs directed at high- risk youth. The act
also requires that these funds be spent on the most effective program   and mandates in­
tensive ongoing evaluation of such program.

The House Select Commttee on Narcotics Abuse recently completed a series of hear­
ings on the implementation of the 1986 act. The Commttee , in order to assure maxi­
mum impact for Federal funds disbursed under the 1986 act , examined al aspects of the
funded programs and the state of the art of drug abuse education and prevention.

Administration Initiatives

Both President and Mrs. Reagan have addressed the problem of drug abuse. Mrs.
Reagan has been particularly active: making personal appearances , sponsoring the
White Rouse International First Ladies ' Conference on Drug Abuse , and working with
drug education groups towards the goal of a drug- free generation.

On September 15 , 1986 ,   the President signed Executive Order 12564 A Drug- Free
Federal Workplace, " stating that: Federal employees are required to refrain from the
use of ilegal drugs; the use of ilegal drugs by Federal employees , whether on duty or off
duty, is contrary to the efficiency of the servce; and persons who use ilegal drugs are not
suitable for Federal employment.
In March 1987 , the President issued Executive Order 12590 creatig the Cabinet- level
National Drug Policy Advisory Board. The Board , chaired by the Attorney General , coor­
dinates the activities of the 48 Federal deparments and agencies involved in drug enfor­
cement and prevention.

Executive Order 12590 also established the Drug Abuse Prevention and Health Coor­
dinating Group which oversees Federal drg abuse preveI1tion, education, treatment and
rehabilitation programs. This group reports directly to the National Drug Policy Ad­
visory Board in an effort to ensure that the Board members and the President are fully in­
formed and able to effectively direct Federal drug abuse activities.

Impetus for Inspection

In recent testimony before Congress the Deputy Administrator of the Alcohol , Drug
Abuse and Mental Health Administration (ADAM) stated his concern about the
need to evaluate drug education and prevention programs funded under the Anti- Drug
Abuse Act of 1986. He testified that there has been no systematic effort directed towards
evaluation by the States , Federal Government or program administrators and that the
few programs with adequate evaluation components have demonstrated little positive im­
pact on behavior. Because of the paucity of evaluation studies on drug education
programs , their implementation , stability and effectiveness are largely unkown.

A literature review (see Appendix A) and intervews with ADAMHA officials and other
experts revealed three prominent national programs representing distinct approaches to
the problem: Boys Clubs of America , Just Say No , and the National Federation of
Parents for Drug- Free Youth.


THREE NATIONAL DRUG EDUCATION PROGRAS

Boys Clubs of America

There are 1100 affiliated Boys Clubs servg minority and disadvantaged " kids of less
chance. " The average club has 877 boys and girls, 6 to 18 years old and is staffed by
professional workers augmented by volunteers. Activities are varied and include drop-
structured and individual programs. The clubs , which have had a health emphasis since

1972 , responded in 1986 to the gencral concern by implementing a program to prevent
and/or reduce alcohol use , drug use and pregnancy among teenage members in 10 clubs
around the country.

This demonstration project, called " Project Smart " (PS), teaches young people the skills
needed to identify and resist peer and social pressures, and to take a positive personal
stand against these pressures. This comprehensive program has three components: one
for pre- teens which emphasizes skills needed to identify and resist peer pressures;
another for teenagers which emphasizes social skill development, resistance strategies
assertiveness techniques , problem-solving and decision-makig skills as well as stress
reduction; and a third for parents which augments the youth sessions. The parents ex­
plore the realities of peer and social pressures , and learn communication technques to
increase positive interaction with their children.

The pre-teen group, called Smar Moves (SM), is led by a Prevention Team composed of
staff, parents , community representatives and older club members who implement the 12­
week program based on a manual provided by the Boys Clubs of America headquarters.
This study looks at the SM aspect of the Boys Clubs program.

Materials on this program wil be available to all Boys Oubs in 1988 and traing sessions
are scheduled throughout the year. About 200 Boys Clubs are scheduled to implement
SM during 1988.

Just Say No

The Just Say No (JSN) program attempts to make chidren in the 7- 14 age group aware
of social pressures to use drugs, to teach specific refual skills and to correct false views
of social norms through educational , recreational and servce activities. These clubs
meet in schools , churches , community centers , teen centers and homes. Each club is uni­
que. Since Just Say No is not copyrighted , it may be used by anyone whether affiated
with the Just Say No Foundation or not. Even afliated program are not bound by the
JSN Club Handbook, a 220- page book which is available through the foundation and con­
tains plans for organizing a club , suggestions for meeting formats , educational servces
and recreational activities.

Just Say No was originally part of NIA' s Pyramid Project , a Government contract with
the Pacific Institute for Research and Evaluation to intiate and evaluate programs to
reduce substance abuse. It has since evolved into the independent Just Say No Founda­
tion , established in July 1986, to support local clubs and promote the Just Say No move­
ment at the national level. The foundation provides consultation to clubs , individuals
and organizations that wish to launch clubs; produces wrtten materials; provides on-site
assistance , workshops and training; maintains a national diectory of clubs; and provides
materials including a comprehensive training manual , a members handbook, baners
flags and buttons.

National Federation of Parents for Drug- Free Youth

The National Federation of Parents (NFP) is a grass roots parent organiation     formed in
1980 by parents alarmed by the growing evidence of drug use among children. Its prin­
cipal objective is to assist in the formation and support of local parent and youth groups
across the country that seek to elimate drug and alcohol use among youth. Parents
around the country " network" to help children understand why they must resist peer pres­
sure to use drugs and alcohol , and to offer healthy alternatives. They advocate greater
parental involvement in determng the values and environment of their children.

The NFP provides many activities coordinated by its national headquarters and imple­
mented by trained voluntar networkers in 50 States. They sponsor an anual national
conference , distribute public servce announcements , paricipated in the Whte House In­
ternational First Ladies ' Conference on Drug Abuse , provide a reference servce and
lobby State legislatures and Congress. The NFP reports 800 afated parent groups that
meet on a regular basis.

The NFP umbrella organization networks with existing and new drg- free youth groups.
It developed " Reach America" (Responsible , Educated Adolescents Can Help America
(stop drugs)), a youth leadership training project to help older students educate younger
ones. This is an effort to " re-educate " the American public , especially young people
regarding the hazards of drug and alcohol use. The NFP has also developed " Project
Graduation Celebration " in conjunction with some business organzations to help stu­
dents safely celebrate high school graduation. Ths study looks at al youth program
sponsored by NFP.

Lastly, a benefit of NFP membership is eligibilty for tax-exempt status for all parent
groups under the NFP umbrella.


METHODOLOGY

This inspection was conducted in two phases: the fIrst developed a national pk1ure
JSN and NFP; the second was an in- depth look at the operation of al three programs in
12 metropolitan areas.

In Phase One discussions were ld with the national leaders of the three programs to ex­
plore their underlying philosophy and to elicit national information, such as membership
lists and club locations. The membership lists were used to conduct telephone surveys of
the local programs in order to project demographics and other findings. (The Boys Club
program was excluded from the telephone survey because there are only 10 sites in its
drug education program and 7 were included in the site visits described below. ) The com­
bined Just Say No and National Federation of Parents membership lists provided a
universe of 2150 (1350 JSN and 800 NFP). A 10 percent random sample or 215 members
(135 JSN and 80 NFP) were selected for telephone intervews.

Forty- two were not intervewed. (Thirteen were unreachable and 29 never responded to
letters requesting them to call us or send us a telephone number where they could be
reached. ) There was a response rate of 80 percent. It was determied that 40 were no
longer involved and 11 were involved in groups that had no youth programs. (See Appen­
dix B. ) Findings from this survey can be projected to the unverse of JSN and NFP mem­
bers. For example , based upon the finding tbat 122 of the 173 members contacted had
youth programs , we estimate that 71 percent ( + /- 5. 5 percent at the 90 percent con­
fidence level) of all members have youth program.

Phase Two consisted of a broad range of intervews at 12 metropolitan sites. Team mem­
bers from each Regional Office intervewed local drug education specialts, program
leaders and participating children and their parents during viits to four local programs in
each metropolitan site. Tbe metropolitan areas were in the West (Caiforna and
Washington), the Midwest (Illiois and Missouri), the South (Texas, Florida, Georgia
and the District of Columbia) and the Northeast (Pennlvana , New York, New Jersey,
and Massachusetts) using the Bureau of Census geographic regions.

The team met with 43 independent professionals (37 percent in person), not directly in­
volved with the programs in the study; visited 49 local clubs (7 BC , 31 JSN , 11 NF); and
interviewed 49 program leaders in person, 234 youth participants in person and 126
parents of participants (32 percent in person).
     ; "                                                          ;"




                                       FINDINGS

ENVIRONMENTAL AND CROSSCUTTING OBSERVATIONS

Gateway Drugs " Are The Primary Concern Of Most Respondents

Three- quarters of the professionals, including program leaders intervewed on-site
believe their communities have drg problems. Three- fifths of the parents agreed.

Almost all professionals , program leaders and parents named alcohol fist when asked to
rank the problem drugs , except in Florida, where according to respondents cocaine and
crack are easily accessible , cheap and present a tremendous problem. Parents and leaders
ranked marijuana next , while the independent professionals saw tobacco as the problem
drug second to alcohol. Although all these respondents viewed tobacco as a drug, they
did not perceive it as presenting the danger of other drugs. In these intervews we did not
define drugs for the respondents.

It is interesting to note that while vitualy all youth respondents agreed that cocaine and
marijuana are drugs and 88 percent considered alcohol a drug, 25 percent of the youths
interviewed did not see tobacco as a drug, and one- third did not view wie coolers as a
drug.

All Agree That Those Most At Risk Have Low Self-esteem, Drug Use In The Family
And/Or Problems At Home

Parents , leaders and independent professionals most often identifed youths with low self-
esteem as those most at risk and hardest to keep from takng drugs. Youths with
problems such as drug use in the home , divorce or death of a parent , or other famy
problems were also frequently mentioned. Respondents believed that those at risk can
range from children of the homeless to those in high income , career- mided famlies.

Many of the independent professionals encouraged effort towards self-esteem promo­
tion , problem solving and positive decision making. For example , one community has a
special drug education program for chidren under stress such as those with death
divorce , drug use or other stressful conditions in their lives. The youth respondents often
mentioned teenagers or older kids as most at risk. They also mentioned: youths that
 think they know it all and don t listen ; those who " don t fit in tough kids " or " troubled
kids children whose parents or friends use drugs ; and " those with famly problems.

Respondents Felt That Drug Education Must Be Comprehensive, Include Parents And
Start Early

 Most independent professionals (88 percent), parents (81 percent) and program leaders
 (68 percent) intervewed said parental involvement was important, but many also agreed
                                                        ,"




that drug education must include the school and the community and always be visible.
Many respondents believed that it is important to start early, before children can be in­
fluenced by drugs. One independent professional said More and more I feel it is most
effective with younger age groups. Direct stuff at the 4th to 6th grade , but speak about it
        1I Many said that no one program works alone , that effective drug education re­
earlier.
quires a wide base of support , a comprehensive approach , an early start in the schools
amI the active support of the famly and community.

Most Agree The Use Of National     Personalities, If Drug- free, Is A Good Strategy

Parents (80 percent), leaders (82 percent) and independent professionals (83 percent) in­
tervewed agreed that national personalities speaking out against drug use and supporting
drug education programs was a positive approach. However, they also felt it important
that these personalities be drug- free and not reformed drug users. The use of reformed
addicts gives youths the message that they can use drugs and then " kick the habit. " Nancy
Reagan , Kirk Cameron and Punk Brewster are the national personalities most frequent­
ly mentioned. Over one- half of all respondents volunteered Nancy Reagan when asked
what national personalities are associated with drug education, commenting that the First
Lady s personal commttment to the national problem is inpirg to those at the grass
roots level.

Leaders, Youth Participants And Parents Liked The Programs

All leaders were enthusiastic and agreed that their program were positive and generally
effective. They said the programs build self-esteem, raise awareness, teach youths to
make good decisions and help youths react to peer pressure.

Both parents and youths were also enthusiastic    More than three- quarters of the youths
chose to be in the program , considered it fun and said the programs help youths stay off
drugs. Most parents (85 percent) were also positive and thought these drug education ac­
tivities were making a difference in the community.

Respondent Perceptions Do Not Vary By Demographics

An analysis of the responses by demographic characteristics indicated that on certain key
interview questions (i.e. , How would you rate the program?; Do you feel the program
helped you not to take drgs?) all categories of respondent anwers did not var with
demographic characteristics (race , urbansuburban , geographic location) using the 1980
   S. Census data for characteristics (See Tables n and il).

 Independent Professionals And Leaders Are Seeking An Assessment Of What Works

 Many independent professionals and program leaders consider it difficult to know the ef­
 fectiveness of drug education and prevention today. Although the leaders were generally
 enthusiastic about their programs , some suggested that it would be interesting to talk to
these same youths in 5 years and see if their determnation to be " drg- free " for lie   per­
sists. At present , no such evaluation exists.

Youths Report Knowing Others Who Have Tried Drugs But Few Tried Drugs Themselves

Only 35 percent of the youth respondents (average age - 12) know 10 or more youths who
have ever smoked cigarettes and even fewer know youths who have had a few        dri
                                                                                   (32
percent), chewed tobacco (15 percent) or tried any other drugs (14 percent). When other
drugs were tried , marijuana was named almost exclusively. The drug activity of the
youths intervewed was even more limited than that of their frends and acquaintances.
Some said they had tried a few drink (29 percent), usually on holidays or special oc­
casions with their parents. Even fewer had ever smoked cigarettes (11 percent), chewed
tobacco (5 percent) or tried other drugs (3 percent).

Most Program Activities Are In Schools

Eighty- two percent of those contacted in both the telephone surey and the site visits had
program activities in a school. This appears to be occurrg for two reasons: schooloffi­
cials and teachers are very much aware of the problems of youth drg use because they
see it in their students and sometimes on the school propert; and additionally, schools
are a logical environment for conducting drug education programs. This is true not only
because it is a learng environment where youths come together, but also because there
is an opportunity for peer support which many consider essential for successful youth
drug education programs.

Programs Are Supported With Local Funds

While program leaders intervewed on-site and telephone survey respondents agreed
these programs do not require a lot of money, they would like additional resources.
Since 82 percent of the programs are in schools , the school provides a leader in most
cases , generally a teacher. When the program meets after school the leader sometimes
volunteers his/her time. A few programs have State or local governent grants , but most
obtain additional fuding from the parent- teacher associations , local businesses or or­
ganizations and/or fundraising activities like bake sales or car washes. Ths appears to be
a case of seed money working.

Minorities Are Participating



Nearly half (46 percent) of the JSN and NF program included in the telephone survey
reported minority club memberships of at least 20 percent. For the purposes of thi
study, minority is defined as black or Hispanic. Twenty-seven percent reported that their
club membership was at least one- half miority. (See Table I.)
                                                        TABLE I

                                    JSN AND NFP PROGRAMS BY

                                PERCENT OF MINORITY PARTICIPANTS *



                                                          PERCENT OF PROGRAS


             % BLACK OR                                    NATIONAL FEDERATION         TOTALJSN &
               HISPANIC                 JUST SAY NO            OF PARENTS              NFP COMBINED


                   50% +                   31%                                             27%

                   20-49                   16%                      32%                    19%

                                           53%                      59%                    54%

                 Number
               of Programs
                Surveyed                                                                   115

        . Survyed by Telephon



Of the two programs , JSN had the larger miority club membership. Nearly one- third of
its local clubs had 50 percent or more minority children among their members.
While minorities participated in al four regions of the country, as defied by the United
States Census Bureau , their involvement was most pronounced in the South and North­
east and least in the Midwest. (See Table n.

                                                        TABLE II

                              PERCENT OF MINORITY PARTICIPANTS IN

                                JSN AND NFP TELEPHONE SURVEY

                                    PROGRAMS BY REGION *


                                                        PERCENT OF PRORAS


       % BLACK &
        HISPANIC                 WEST          MIDWEST       NORTHEAST       SOUTH               TOTAL


           50+                   12.                            25%              42%             27%

           209                   12.              11%           25%              23%              19%

            0-19                 75%             85%            50%              35%             54%

        Number of
         Programs
         Surveyed                                                                                 115

    . Survyed by Telephone

There appears to be a relationship between the character of the sponsorig community
and the level of minority participation. Generally, miority participation was greatest in
inner- city areas. Those program in urban areas had the second highest levels of
minority participation. While program in rural areas , though less liely than either
inner-city or urban areas to serve substantial numbers of minorities , were more likely
than suburban areas to report minority club memberships of at least 20 percent (Table
III).

                                         TABLE II
                      PERCENT OF MINORITY PARTICIPANTS IN JSN

                      AND NFP TELEPHONE SURVEY PROGRAMS BY

                         URBAN CHARACTER OF COMMUNITY *



                                         PERCENT OF PROGRAS


        % BLACK &
        HISPANIC           INNER   URB        SUBURBA         RURAL          TOTAL


          50+              63%     31%           12%                          27%

          20-              16%     28%           20%           25%            19%


                           21%     41%           68%           56%            54%


        Number of
        Programs
        Surveyed                                                              115


 * Surveyed by Telephone


These percentages of minorityehildren participating were reported by program respon­
dents in the telephone survey. There was no opportunity to veri the racial composition
of those regularly attending club sponsored activities. However, of the children inter­
viewed during site visits , 18 percent at JSN sites were miority, and 13 percent at NFP
sites were minority.

Although the Boys Clubs program was not included in the telephone survey, information
gained from visits made to seven of the 10 Boys Club sites showed that 76 percent of the
children participating were miority.

Parental Involvement Is Reported As Minimal

Although approximately two-thirds of survey respondents and leaders intervewed on-site
said that parents are involved in the program to chaperon, provide tranportation or
refreshments , or help with special program , less than one- thid of the youths said their
parents were involved. From the on-site intervews it appeared that one or two parents
are very active within each program. However, more than 80 percent of independent
professionals and parents intervewed would like to see more parental involvement.


BOYS CLUBS OF AMERICA OBSERVATIONS

Demographics

Using the site visits as a source , the average age of youth participants in Smart Moves was
12 years old and the average grade level of those youth intervewed was the seventh. This
program had a large number of minority participants intervewed , with the South (82 per­
cent) and Midwest (100 percent) both having a majority of miorities. The West (45 per­
cent) and the Northeast (40 percent) also had a substantial number of miority
participants , as ilustrated by Table IV below:

                                             TABLE IV
                   AGE , GRADE AND RACE/ETHNICITV
                           STATUS OF YOUTH

       PARTICIPANTS IN SMART MOVES PROGRAM VISITED BY REGION




                         WEST       MIDWEST             SOUTH   NORTHEAST      TOTAL



       Average Age


      Average Grade       8th         7th                6th       9th           7th

         % White         27.                             18%      60%            24%

         % Black         45%          100%               82%                     63%

       % Hispanic        27.                                      40%            13%

       Number of
          Youth

       Interviewed




Young, Growing Initative For High Risk Children

Smart Moves , a part of the Boys Clubs Project Smar , began in December 1986 as a
federally- funded demonstration project in 10 Boys Club chapters. Because of the posi­
tive reception the program received at these sites , it is being expanded to 200 chapters
nationwide.
                                                                   , "





One example of the positive reception Smar Moves has received is that though it was ini­
tially funded to be run once in one Tampa, Florida club , it is now running at least three
times per year at each of the seven Tampa clubs and is supported with loca fundig.
Because the Boys Clubs , which frequently serve girls too , were usualy located in inner
cities , sometimes in public housing projects, they reach " kids of less chance. " Boys Club
youth participants appeared to be famliar with the street drug culture. For example
youths reported they frequently witnessed drug deals , were approached to run drugs or
serve as look-outs for dealers. One Boys Club unit director said          re competing with
the drug dealers for these kids. They could make $200 a day out there. " This is sup­
ported by the finding that 7 percent of the Boys Clubs paricipants intervewed had tried
ilegal drugs , while less than 1 percent of the other youths intervewed had.


Smart Moves Is Voluntary And The Demand Is High

Participation in Smart Moves is completely voluntary. Every youth participant inter­
viewed said that they chose to join Smart Moves. Boys Oubs leaders reported that more
children wish to join Smart Moves than they are currently able to serve. With club sizes
ranging up to 1000 members and a Smar Move class limit of about 30 , it is not surprising
that some clubs have continued to run sessions beyond the pilot period. To meet the
demand some clubs have gone to club-wide activities in support of Smart Moves such as
health fairs , games or outings.

The Curriculum Is Closely Followed

Smart Moves is conducted from a currculum which includes an outline for each of the 12
sessions , role play situations , suggested related activities , and questions and anwers to
review. All of the program leaders intervewed said they lied and followed the cur­
riculum closely: the only modifications made at the local level were to increase the
amount of role playing and to rewrite some sections of the manual so the youths could
read and easily understand it.

Leaders And Parents Like The Training They Receive

The leaders of the local programs all attended formal training provided by the national
office. There was a consensus among the leaders that the traing was good and impor­
tant to the success of the project.

They also liked the parent program which coordinates with Smart Moves. One leader
said that parent participation in this 8- hour program (offered either as a 1- day session or
4 2- hour sessions) was about 40 percent. Many of the parents intervewed reported liking
the program and thinkng it of great value to them by helping them to communicate bet­
ter with their children and allowing them to know what is going on in their children
drug education program.
It Is Well Liked   But   Not Well Known

Leaders , youths , and parents were unanimous in their support of Smart Moves. All
leaders , 97 percent of the youth participants and 94 percent of the parents thought it did
a good job of keeping kids off drugs.
While the leaders interviewed on-site praised SM' s neighborhood involvement and peer
counseling, the children most often mentioned enjoying the chance to talk openly, the
role playing and the skits. The only criticism voiced to us by the children was that the
program ended.

Smart Moves is unique to the Boys Clubs. Among the independent professionals con­
tacted only 52 percent had heard of the Boys Clubs drug prevention efforts and even
among those , only one-sixth felt knowledgeable enough to offer an opinon on its merits.
All who offered an opinion thought SM had a positive infuence on youth drg related be­
havior and delayed the onset of drg use. Several independent professionals said it
provides adolescents with positive alternatives.


JUST SAY NO OBSERVATIONS

Demographics

Comparing the United States population by region (using U. S. Census figures for 1980)
to projections made from the telephone survey reveals that JSN is concentrated in the
South and under-represented in the Northeast and West. The South comprises 33        per­
cent of the U. S. population , although 52 percent of JSN clubs are found there. The
Northeast comprises 22 percent of the population, yet only 12 percent of the JSN clubs
are in the Northeast. The West comprises 19 percent of the population, with a JSN repre­
sentation of 12 percent. The only section of the country whose JSN representation ap­
proximates its percent of the U. S. population is the Midwest which comprises 26 percent
of the population and has a JSN representation of 24 percent. (See Appendix C.

Just Say No program locations closely follow the distribution of the U. S. population in
urban , suburban and rural areas. As shown in Appendix D , there is practicay no dif­
ference between the distribution of the sample of JSN program surveyed by telephone
and the urban, suburban and rural location of the U. S. population. (Since the defition
of the three categories differs from the U. S. population and for the program, the data
are only comparable in a general way.

The telephone survey respondents reported the modal age range of JSN participants to
be 9 to 11 years old , with females predomiating with an average of 67 percent of the
club members.

The distribution by race is discussed above. (See Tables I , II ,   il.
Using the site visits as a source, the average age and grade of club participants vared
slightly from region to region. Overall the average age was 11 years old and the average
grade the sixth , which are both within the target age group described in the JSN manual.
(See Table V.
                                               TABLE V

                      AGE , GRADE & RACE/ETHNICITY STATUS OF

                        YOUTH PARTICIPANTS IN JUST SAY NO

                             PROGRAM VISITED , BY REGION



                           WEST        MIDWEST         SOUTH        NORTHEAST         TOTAL



       Average A!e

      Average Grade         5th          7th              6th           6th            6th

         % White           80%           96%              69%          81%*            80%

         % Black           15%                            31%          11%             17%

        % Hispanic

        Number of
           Youth                                                                       149
        Interviewed


* Total percent does not equal 100 because one Asian youth was interviewed in the Northeast.

The Program Is Young And Appears To Be Growing

The president of the JSN Foundation reports that the first school club was established in
January, 1985 , and the JSN handbook was published less than a year ago. He further
reports that since 1985 the program has grown quickly to between 15 000 and 17, 000
clubs. However , the membership list JSN provided the study team contaied only about
  200 names. The JSN Foundation president clais that the dierence between 1 200
and 17 000 may be explained ,   in par , by the fact that an entire school system may be
counted as one member on the list , but may contain a club in every school. Since no
record is kept of how many separate clubs are represented by every school system on            the
list , there is no way of knowig how many clubs exist.

According to the telephone survey, the average JSN group has been in existence for
months and the current leader has been involved almost the entire time. All but one in­
dependent professional respondent familiar with JSN (95 percent) indicated that the
program is growing in their community. It is tyical for the program to start in one or two
classes in a school and then expand to other classes and other schools in the community.
The Program Is Usually Ongoing And Part Of A Larger Program

Almost all people contacted in the telephone survey (86 percent) and JSN program
leaders interviewed as part of the on-site visits (93 percent) said their program were on­
going. Since 84 percent of those surveyed and 77 percent of the leaders visited had
school programs , most programs ran for the school year with youth members involved for
the entire time. Only 12 percent of the youths intervewed said they no longer took part
in a JSN program.

Most independent professionals felt that JSN should be par of a larger program and 80
percent of those programs visited were in fact part of a larger program. There is usually 3
drug education curriculum in the State , school system, school or class of which JSN is a
part. Several jurisdictions visited have a comprehensive cuicuum with a manual that is
distributed to al1 schools.

Although JSN is usual1y part of a school program, three- quarters of the youth respon­
dents said they could choose to join. In one case where the program is part of a school
curriculum , only students who choose to sign the JSN pledge are considered a part of the
program , although al1 students must attend the in- class club meetings.

The Just Say No Model Is Flexible

The JSN handbook was developed to lin   the slogan "Just Say No " with a program. The
handbook describes Just Say No clubs as " groups of children, mostly 7 to 14 years old
united in their commtment to say '     ' to drugs... not a formal currculum or a highly-
structured approach... designed to be flexible , allowing it to be tailored to the unique
needs of every community, of each group of children.

The JSN is implemented in many ways with some clubs following the traditional descrip­
tion in the handbook, but others not. When the leaders intervewed on-site were asked if
their program was like the one descrbed in the handbook, some (42 percent) agreed , but
almost as many (35 percent) described their program as only partialy using the hand­
book , saying they had altered it to fit their own needs. Several did not even have a JSN
handbook.

Since most of the program visited were in schools, they usualy met during class time.
Sometimes the groups met after school , but it is often difficult for the students to stay for
after school meetings. Some schools had representatives selected from each class take
part in a meeting and return to their classes with information and suggested activities.
Stil others had specific time al10tted to clubs during the school day; JSN was one of the
many clubs the youths could join.

There was a wide range of activities described by the groups visited. Most youth respon­
dents (56 percent) said they heard talks about drugs. Other activities included group dis­
cussions , pledge signing, movies , skits, poster and essay contests , trips and speakers.
                           , "            , '                                       , "




Both the telephone survey and on-site intervews revealed that most of the leaders are
teachers. It was difficult for many leaders to estimate how many hours a month they
spent on program activities, and there was a wide range for those that tried: from 2 to 50
hours per month. The training of the leaders varied: almost three- quarers of the
leaders interviewed on-site had no specific training in drug education, whie others had
been to relevant workshops.

Just Say No Is Usually Viewed Positively, But Limitations Are Recognized

All of the JSN participants visited were very enthusiastic The leaders were anxous to
talk about and have the children demonstrate their activities. Over 80 percent of the
youth respondents said the program helped both themselves and others stay away from
drugs. Most of the parents (92 percent) felt their chidren s involvement in the JSN
program has had a positive effect on their drug-related behavior and attitudes and 80 per­
cent felt that the local program made a difference in their community.

For the most part , the independent professionals familiar with JSN also had a positive im­
pression. Approximately two- thirds of those interviewed said involvement in the JSN
program influences drug-related behavior and has made a difference in their community
and its schools. Fifty-eight percent felt the program delayed or prevented the onset of
drug use. Eighty- five percent of the independent professionals intervewed gave JSN a
rating of good or excellent.

Although they liked the program, some independent professionals said the JSN national
effort is simplistic. Yet , they credit its simplicity with causing " awareness of drugs in
lower grades. " Creating an awareness of the drug problem was often cited as the greatest
strength of the JSN program.

Many of the local experts stressed the importance of a comprehensive approach. As one
respondent , the drug educatio:q '2oor:dinator for a metropolitan school system , said Just
Say No " is one facet on the diamond that is our (drug education) program. " Another inde­
pendent professional said It must be integrated into existing servces; if you say "
what are you offering as alternatives?"

Most people (88 percent) intervewed in the telephone survey had lited contact with
the national offce: they   received materials and had occasional telephone conversations.
Almost all (91 percent) found the contact and the material helpful , and one- hal of the
respondents rated the support they receive from the national organtion good , and an
additional one- quarter rated it excellent. The program leaders intervewed on-site
agreed: all received materials and 81 percent found the materials helpful; two- thirds
rated the support they received from the national office as good , while another one-third
thought it excellent.

 Most leaders felt there should be more parental involvement in the program. An inde­
 pendent professional in the South said Teaching youths and not the parents is like c1ap­
                              " "                " "




ping with one hand. " Some mentioned that the materials the JSN foundation offers are
too expensive and some respondents talked of providing better trainig for the leaders.

When youths were asked what they liked best about the JSN program their answers
varied. Some of the most frequently mentioned comments were: " learng about drugs
 teaching kids drg awareness the whole thing, working. together on projects " and
 helping people. " More than three- quarters of the children intervewed , when asked
what they did   notlike about the JSN program, answered " nothing " or " I like it all."


NATIONAL FEDERATION OF PARNTS FOR DRUG- FRE
YOUTH OBSERVATIONS

Demographics

When comparing the United States population by region to the NFP projection made
from the telephone survey, NFP proves to be quite evenly distributed: the South com­
prises 33 percent of the U. S. population with a 36 percent NFP representation; the North­
east comprises 22 percent of the population with an NFP representation of 23 percent;
the Midwest comprises 26 percent of the population with an NF representation of 18
percent; and the West comprises 19 percent of the population with an NF repre­
sentation of 23 percent. (See Appendix B.)

As shown in Appendix D , NFP program surveyed by telephone appear somewhat more
likely to be located in suburban areas than the U. S. population. The NF telephone sur­
vey respondents reported a modal age range of 14 to 17 years old for youth participants
with females predominating at 88 percent of membership. The race distribution of the
telephone survey respondents is discussed previously and described in Tables I , n and III.

Using the site visits as a source the average age of participants in NF groups is 14 while
the average grade is the 8th , without signcant variations. (See Table VI.

Two- Fifths OfNFP Members Are No Longer Active

According to the NFP members caled in the telephone survey,
40 percent were no longer active. No paricular   reason was frequently   mentioned for en­
ding their involvement. Their children growing up, movig to a new area or the lack of
volunteers were some of the reasons heard. A number had also joined for inormation
and once the information was received, membership was no longer needed.

It is interesting to note that using the membership list provided by NFP, the on-site team
had difficulty finding NFP youth groups stil in existence. Only one southern State had a
number of groups. Interestingly, they were run by VISTA volunteers from ACTON.
                                           TABLE VI
                          AGE , GRADE AND RACE/ETHNICITY

                        STATUS OF YOUTH PARTICIPANTS IN NFP

                           PROGRAMS VISITED, BY REGION



                                   MIDWEST            SOUTH   NORTHEAST      TOTAL
                          WEST



       Average Age

                           8th       9th               7th       9th           8th
       Average Grade

                           100%      92%               62%       100%         87%
          % White


                                                       38%                    13%
          % Black

        % Hispanic

         Number of
            Youth

         Interviewed




Two- Thirds    Of The NFP Sites Conduct Youth Programs Which Are Usually JSN
Programs

Nearly one- half (44 percent) of the NFP members intervewed in the telephone survey
that have youth groups have Just Say No program. Although NFP has its own youth
group curriculum called Reach America which involves a weekend of intense drug educa­
tion , only two of the survey respondents said their youth program was Reach America.

The site visits found only one Reach America program. The youth participants and
leaders interviewed on-site were enthusiastic However , since it was a weekend event
with periodic reunions , many of the participants said they would like more frequent meet­
mgs.

Parents , youth participants and the leader were unanmous in their praise of the program.
Some comments were, " It has an emphasis on self-esteem and self-respect and gives the
                                                   " li
youth the feeling that it' s okay to be drug- free. lt's fun and educationa1."

NFP Provides Local Parent Groups With Tax- Exempt Status And An Information Net­
work

Many of those intervewed in the telephone survey stated that they had joined NFP as a
source of educational material and to get the group tax-exempt status that membership
offers. The tax-exempt status helps these program raise money because persons and or­
ganizations can deduct their donations to such NFP program. However , this could
prove to be a vulnerability since two- fifths of the members are no longer active. Some of
those called were parent " networkers " and stil others wanted to affliate with the or­
ganization to market their own educational materials.

Independent Professionals Not Involved                In   NFP Are Not Aware OrIts Activities

Although 63 percent of independent professionals had heard of NF, only 20 percent
knew enough about it to answer the intervew questions. They all felt involvement in
loca1 NFP programs delayed or prevented the onset of drug use and also felt that this in­
volvement has made a difference in the community. However, some felt NFP should
have more interaction with other drug programs, there should be more multifaceted ac­
tivities and youth should be included more often.


RESPONDENT SUGGESTIONS FOR ALL PROG



dent.
All persons contacted during the inpection
proving youth drug education. Their responses are
                                                                                  they had for im­
                                                           were asked what suggestion
                                                                  sumarized below tye of respon­
                                                                                 by


Parents believe there is a role for both schools and media in youth drug education and

suggest that it be aimed at elementar school children. They also recognze the need for

a parental role. They made some other interesting suggestions such as:


                             Include parental education.

                             Promote stricter laws.
                              Talk to the kids, not at them.

 Youth feel there should be more drug education activities during and after school and
 want parental involvement. They also suggested solutions to the drug problem such as:

                              Stop beer and tobacco commercials.
                              Stop grown-ups from using drugs.

                              Keeping drugs from coming into the country.


 Program leaders (on-site) believe there should be governmental funding and a united na­
 tional effort to promote youth drug education programs that start at the elementary 1evel.
 They also believe that beer and alcohol advertisements in the national media are
 detrimental. Other suggestions              from the leaders include:

                              Promote interaction among program leaders.
                              Find better role models.
                                                                           , "




                Create and share resource listings.
                Run program on a broad , communty-wide basis.

Independent professionals want a coordinated, community-wide effort which includes an
ongoing drug education curriculum in the schools. They think this should be government
funded and have a strong parental role. One independent professional said Kids want
to be active and involved. They wi grab whatever is out there. They need help in or­
ganizing and being handed something to be involved in. They don t need to be preached
at to be involved. They need to be guided with information. Kids ran the show for a long
time.

Telephone Survey

Those surveyed suggested more Governent funding, better materials , and a parental
role in an ongoing school program starting at the elementar level. Other suggestions in­
cluded:

                Increase the use of peer program.

                Focus on junior high school.

                Make youth drg education a truly national effort.

                               RECOMMENDATIONS


The following recommendations were developed based on the inspection fidings        and
respondent suggestions:

                 The ADAMHA and ED should develop an evaluation strategy to
                 include long- and short- term evaluations of the implementation and
                 effectiveness of youth drug education programs.

      Respondents , especially the independent professionals , are looking for an
      evaluation of what tyes of approaches work best in preventing youth from
      using drugs.



                 The ADAMHA and ED should assure the effective dissemination of
                 available research findings , clearinghouse information and other
                 networking activities.

       This recommendatiol1 was strongly supported by feedback from program
       leaders and independent professionals. Although this inormation is
       presently available in various places , due possibly to breakdown in
       communication, the inormation is not getting to the grass roots.

                 The ADAM and ED should give special consideration to funding
                 comprehensive youth drug education programs which target children at
                 early ages.

       The independent professionals felt strongly that drug education must start early,
       long before the target age of first use (12 years old) and before habits are formed.
       The leaders intervewed on-site and most of the telephone survey respondents
       agreed.

                 Youth drug education program should include a parental component to
                 keep parents informed regarding what the chidren are learning and
                 what their own role is in drug prevention.

       More than 80 percent of independent professionals and parents interviewed
       would like to see more parental involvement. The parents intervewed who par­
       ticipated in the Boys Club parent program liked it and thought it of great value.

                 The ADAMHA and ED should review existing leader trainig programs
                 with a view to identifyng, developing and publicizing a model to be
                 made available to States, local communities and programs.
Almost three- quarers of tbe leaders intervewed in the JSN on-site visits had no
training in drug education; the others attended workshops. There was consensus
among the Boys Clubs leaders wbo attended formal training provided by the na­
tional office that the training was good and was important
to the success of the program.
                                            APPENDIX A


The resource materials included in the following bibliography were reviewed during the
inspection.

                                                  Bibliography

Adams , Thomas; Resnik , Hank; et al. " Stop Drug Abuse Before It          Starts.   The Just Say
No Handbook , 1986.

Botvin , Gilbert J. ; Wils , Thomas A. Personal and Social Ski1s Training: Cognitive- Be­
havioral Approaches to Suhstance Ahuse Prevention . Monograph 63 , DHHS Pub. No.
(ADM) 85- 1334 , 1985.

Botvn , Gilbert J. " Substance Abuse Prevention Research: Recent Developments              and
Future Directions. .(Qurnal of School Health.          Vol.56, No. 9 (November 1986), pp. 369­
374.


Botvin , Gilbert J.        Prevention Research , DHHS Pub. No. (ADM) 85- 1372 1984.


Bukoski , Wiliam. .. School- Based Substance Abuse Prevention. Journal of Children in

Contemporary Society, Vol.18,   Nos. 1/2. (Fall/inter 1985), pp. 95- 115.

Childhood and Chemical Abuse: Prevention and Intervention. Journal of Children in
Contemporary Society. Vol.18 Nos.   (Fall/inter 1985), pp.249- 278.
                                            1/2




Goodstadt , Michael So. " Prevention Strategies For Drug Abuse.
Issues In Science and Technology, (Winter 1987), pp.28- 35.

Guide For Drug Ahuse Prevention DHHS Pub. No. (ADM) 86- 1465,
  1986.

Helping Your Pre- teen Say No , DHHS Pub. No. (ADM) 86- 1417
  1986.

Manatt        , Marsha.   Parents , Peers , and Pot n . DHHS Pub. No. (ADM) 83- 1290 1983.

Mann , Peggy. "  re Teaching Our Kids To Use Drugs. Reader s Digest, Vol. 131
No. 787 (November 1987), pp. 107- 110.


Meeting The Challenge: Just Say No . The Just Say No Foundation for ACTON. Con­

        137- H304/01 1987.
tract No. 





Moskowitz , Joel M. ; Schaps , Eric; et al. ' 'Te Effects of Drug
Moskowitz , Joel M. ; Schaps, Eric; et al. ' The Effects of Drug
 Education at Follow-Up. Journal of Alcohol and Drug Education,
 Vol.30 (Fall 1984), pp.45- 48.

Parents: What You Can Do Ahout Drug Abuse. DHHS Pub. No. (ADM) 86- 1267 1983.

Project Summaries: Twenty Prevention Programs . National Association of State Al­
cohol and Drug Abuse Directors, October 1987.

Schools Without Drugs.    S. Dept. of Education, 1986.
                                        APPENDIX B


                       TELEPHONE SURVEY CHARACTERISTICS


                                                JSN               NFP               TOTAL


                   SAMPLE                       135                                   215


                INTERVIEWED                     111                                   173


                 NO LONGER
                 INYOLYED*

                 HAD YOUTH
                                                                                      122
                 PROGRAMS



* Three that are no longer involved had youth programs in the past and completed the interview.
                                    APPENDIX C

         Comparison of Telephone Sample Populations and
                     United States Population by Region


                                                 Sample Population
                           TOTAL
     REGION                S. Pop. *       JSN          NFP          JSN & NFP

    Northeast               22%            12%          23%             14%

     Midwest                26%            24%          18%            23%

      South                 33%            52%          36%            50%

       West                 19%            12%          23%             14%

Number =             226,450, 000                                       115
* 1980 Census Data
                                                 APPENDIX D


                    . Comparison of JSN & NFP Programs Surveyed by
                           Telephone and              S.   Populations by Urban,

                                           Suburban and Rural Areas *




                                                                 JSN          NFP            TOTAL
                                             POPULATION


                 % Urban                        42%              43%          36%             42%



               % Suburban                       32%              28%          28%              30%



                 % Rural                        26%              29%          16%              28%


               Number = 22, 450,                                                              115




* U. S.   population groups based on Census categories of rural, urbn fringe and other urban areas are
compared with self-reported designations by program respondents of their communitieR as " rural
 suburban " or " urban " (i.e., " inner city or " urban ). The two sets of categories are comparable in only a
very general way.
( ?

..




                                             APPENDIX E





     "IYIC.,


                DEPARTMENT OF HEALTH & HUMAN SERVICES	                   Public Health Service


 'II.a
                                                                         Memorandum
     Date       Ma rc h 2 2 ,   19 88

     From	      Deputy Administrator, Alcohol, Drug Abuse and Mental Heal
                Administra tion (ADAMHA)

     Subject	   National Youth Drug Education Program

                Inspector General, Off ice        Of The Inspector General (OIG)


                Thank you for the opportunity to review and coment on the
                subject report. The report is excellent. I particularly value
                the availability of informtion from your on- site look at the
                operation of these programs.

                We are looking forward to discussing the final report and
                following up on the recomendations with the Department of
                Education.


                                        Robert L. Tracht 

